Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   RHODE ISLAND HOSPICE
  GENERAL INPATIENT CLAIMS
   AND PAYMENTS DID NOT
  ALWAYS MEET FEDERAL AND
    STATE REQUIREMENTS




                       Michael J. Armstrong
                     Regional Inspector General

                            August 2012
                           A-01-12-00002
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Rhode Island Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering the Rhode Island Medicaid program, in compliance
with Federal and State statutes and administrative policies. State agencies have the option of
offering hospice care as a benefit to eligible Medicaid members.

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. The hospice must provide services for
the palliation and management of the terminal illness and related conditions. Each day of
hospice care is classified under four levels of care: (1) routine home care, (2) continuous home
care, (3) inpatient respite care, and (4) general inpatient care. In order to qualify for
reimbursement at the general inpatient care level, the hospice must document that a beneficiary’s
need for pain control or chronic symptom management is beyond the routine home care level of
care. Federal regulations require the State agency to use certain additional beneficiary financial
contributions to reduce Medicaid payments. In addition, drugs related to the treatment of the
hospice beneficiary’s terminal condition are covered as part of the hospice benefit.

For each day that a Medicaid beneficiary is under the care of a hospice, the hospice will be
reimbursed an amount applicable to the type and intensity of the services furnished by the
hospice to the beneficiary.

The State agency made payments for general inpatient care to 8 hospices totaling $1,482,833 for
382 claims during calendar years 2007 through 2010 (January 1, 2007, through December 31,
2010). We limited our review to seven hospices providing hospice general inpatient care in
nursing facilities, inpatient hospitals, and a hospice inpatient unit. At our request, the State
agency performed a medical review of 34 general inpatient hospice claims totaling $178,096.

OBJECTIVE

Our objective was to determine whether payments for hospice care met Federal and State
requirements.

SUMMARY OF FINDING

Hospice general inpatient care payments did not always meet Federal and State requirements.
Specifically, 19 of the 34 claims did not meet the requirements for general inpatient care and
should have been billed as routine home care. This resulted in an overpayment of $39,562
($23,843 Federal share). All of the services related to 18 of these claims were provided in a
nursing home setting. Hospice officials stated that they believed the claims for hospice general
inpatient care were appropriate given the patients’ conditions at the time of the upgrade from
hospice routine home care to hospice general inpatient care.




                                                 i
We identified additional hospice payment errors relating to incorrect cost of care calculations
and separate payments for drug claims. These errors resulted in an overpayment of $5,189
($3,137 Federal share). These overpayments occurred because the State agency did not establish
adequate procedures to detect these types of errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $26,980 to the Federal government;

   •   strengthen internal controls, such as issuing guidance to hospices that better define the
       circumstances for general inpatient care and implementing computer edits to the claims
       processing system to ensure that payments are reduced by the amount of beneficiaries’
       financial contributions and duplicate payments for drugs are not made, and

   •   consider performing additional medical reviews of inpatient hospice services performed
       in a nursing home.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1
              Hospice Care ............................................................................................1
              Hospice General Inpatient Care ...............................................................1
              Hospice Billing ........................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................2
               Objective ..................................................................................................2
               Scope ........................................................................................................2
               Methodology ............................................................................................2

FINDINGS AND RECOMMENDATION...................................................................3

          HOSPICE CLAIMS DID NOT ALWAYS MEET LEVEL OF CARE
           REQUIREMENTS. ...........................................................................................4

          OTHER PAYMENT ERRORS ...........................................................................4

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................5

          CAUSE OF INCORRECT HOSPICE CLAIMS AND
           PAYMENT ERRORS.......................................................................................5

          RECOMMENDATIONS .....................................................................................5

          STATE AGENCY COMMENTS ........................................................................5

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The Rhode Island Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering the Rhode Island Medical Assistance program, the
Rhode Island Medicaid program.

Hospice Care

Hospice care is an optional benefit under the Medicaid program. A hospice is a public agency,
private organization, or a subdivision of either that is primarily engaged in providing care to
terminally ill individuals. The hospice must provide services for the palliation and management
of the terminal illness and related conditions. Each day of hospice care is classified under four
levels of care: (1) routine home care, (2) continuous home care, (3) inpatient respite care, and
(4) general inpatient care. In addition to basic hospice services, short-term general inpatient care
may be provided in a hospice inpatient unit, general inpatient hospital, or nursing facility.

Hospice General Inpatient Care

In order to qualify for reimbursement at the general inpatient care level, the hospice must
document that a beneficiary’s need for pain control or chronic symptom management is beyond
the routine home care level of care. Pursuant to 42 CFR § 418.104, each hospice beneficiary’s
clinical record must contain patient assessments, clinical notes, responses to medications,
symptom management, treatments, and services. Pursuant to 42 CFR § 418.108, short-term
inpatient care must be available for pain control, symptom management, or respite purposes.

Hospice Billing

The State agency reimburses hospices an amount applicable to the type and intensity of the
services furnished to the beneficiary for each day. Pursuant to 42 CFR § 435, the State agency
must reduce its payment to an institution for services provided to a Medicaid-eligible individual
by the amount that remains after adjusting the individual’s total income for a personal needs
allowance and other considerations that the regulation specifies.




                                                 1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether payments for hospice care met Federal and State
requirements.

Scope

We limited our review to Medicaid paid claims for hospice general inpatient care that were
subject to the State agency payment requirements. The State agency made hospice general
inpatient payments to 8 hospices totaling $1,482,833 for 382 claims during calendar years 2007
through 2010 (January 1, 2007, through December 31, 2010). We limited our review to seven
hospices providing general inpatient care in nursing facilities, general inpatient hospitals, and a
hospice inpatient unit. The 7 hospices received reimbursement for 162 claims for general
inpatient care totaling $543,126.

We requested that the State agency conduct a medical review of 34 judgmentally selected claims
totaling $178,096 for 15 beneficiaries out of the 162 claims for hospice general inpatient care.
We analyzed the proportion of the claims reimbursed from each hospice as part of a judgmental
claim selection process. We then selected at least one beneficiary from each hospice and
reviewed all of the claims hospice general inpatient care. As part of the selection process, we
included beneficiaries that had inpatient stays from one day to several months. We also
reviewed beneficiaries who had multiple inpatient stays in different months. We selected
additional beneficiaries at two hospices that submitted and received a greater proportion of
general hospice inpatient reimbursements than the other hospices reviewed.

In performing our review, we established reasonable assurance that the claims data were
accurate. We did not, however, assess the completeness of the Rhode Island paid claims file
from which we obtained the data. We limited our review of internal controls to obtaining an
understanding of State agency’s procedures for reimbursing hospice services and hospices’
procedures for billing general inpatient services provided to hospice beneficiaries.

We performed fieldwork in February through June 2012 at State agency offices in Cranston and
Warwick, Rhode Island, seven hospices located in Warwick, Pawtucket, Lincoln, and
Portsmouth, Rhode Island, and Charlestown, Massachusetts, and the CMS Regional Office in
Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •    reviewed Federal and State requirements;

   •    held discussions with State agency officials to gain an understanding of the hospice
        program and the State agency’s role in reimbursing hospice claims;

                                                 2
   •   evaluated State agency payment files to identify 382 hospice claims for general inpatient
       care totaling $1,482,833 paid to 8 hospices provided to Medicaid beneficiaries in
       calendar years 2007 through 2010;

   •   identified 162 paid claims from 7 hospices totaling $543,126 for hospice general
       inpatient care provided at nursing facilities, general inpatient hospitals, and a hospice
       inpatient unit;

   •   reviewed hospice and nursing home billing invoices and remittance advices to validate
       payment information and determine whether the 7 hospices correctly billed the sampled
       claims;

   •   reviewed 38 claims to verify that the State agency adjusted its payment by the amount of
       the beneficiary’s cost of care contribution;

   •   selected a judgmental sample of 34 claims for 292 general inpatient days totaling
       $178,096 for 15 beneficiaries;

   •   requested the State agency to perform a medical review of the selected judgmental
       sample of 34 claims;

   •   conducted site visits at 7 hospices to discuss hospice internal controls and determine the
       place of service prior, during, and after the general inpatient stay;

   •   evaluated hospice contracts with nursing facilities and hospitals;

   •   verified whether various hospice employees had been excluded from federally funded
       health programs; and

   •   discussed the findings with the State agency and CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Hospice general inpatient care payments did not always meet Federal and State requirements.
Specifically, 19 of the 34 claims did not meet the requirements for general inpatient care and
should have been billed as routine home care. This resulted in an overpayment of $39,562
($23,843 Federal share). All of the services related to 18 of these claims were provided in a
nursing home setting. Hospice officials stated that they believed the claims for hospice general
inpatient care were appropriate given the patients’ conditions at the time of the upgrade from
hospice routine home care to hospice general inpatient care.

                                                 3
We identified additional hospice payment errors relating to incorrect cost of care calculations
and separate payments for drug claims. These errors resulted in an overpayment of $5,189
($3,137 Federal share). These overpayments occurred because the State agency did not establish
adequate procedures to detect these types of errors.

HOSPICE CLAIMS DID NOT ALWAYS MEET LEVEL OF CARE REQUIREMENTS

The Rhode Island Department of Human Services’ Medical Assistance Program Hospice
Manual (Manual) states that for each day that a Medicaid beneficiary is under the care of a
hospice, the hospice will be reimbursed an amount applicable to the type and intensity of the
services furnished for that day.

The Manual further states that hospice routine home care is for beneficiaries who require hospice
services but need less than 8 hours of care per day. The State agency covers hospice general
inpatient care when it is necessary for pain control or acute symptom management.

Pursuant to 42 CFR § 418.104, each hospice beneficiary’s clinical record must contain patient
assessments, clinical notes, responses to medications, symptom management, treatments, and
services.

Of the 34 claims for hospice general inpatient care in our review, 19 did not contain sufficient
documentation to justify upgrading beneficiaries from routine home care to general inpatient
care. 1 These errors resulted in an overpayment of $39,562.

                 An Example of a General Inpatient Claim Not Meeting Requirements

Beneficiary A received hospice routine home care from April 1, 2009, to April 14, 2009, at a
nursing facility. On April 15, 2009, beneficiary A began receiving hospice general inpatient care
at the same nursing facility. The review of the medical records supporting the general inpatient
care claims revealed that there was no documented change in beneficiary A’s status regarding pain
control and acute or chronic symptom management. Therefore, the hospice provider’s claim of
general inpatient care was unjustified, and the hospice should have continued to claim routine
home care for beneficiary A.

OTHER PAYMENT ERRORS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. In addition, the Manual states that drugs are covered under the hospice
benefit when used for symptom control related to a beneficiary’s terminal illness.

The State agency did not adjust four Medicaid payments to two hospices by the amount of the
beneficiaries’ cost-of-care contributions from resources, such as Social Security and pensions.
1
    The hospice services associated with these claims were provided at nine skilled nursing facilities.

                                                             4
Furthermore, the State agency also made 64 separate payments for drugs related to hospice
beneficiaries’ terminal conditions that were covered under the hospice benefit. These errors
resulted in an overpayment of $5,189.

AMOUNT OWED TO THE FEDERAL GOVERNMENT

The State agency overstated its Federal claim for Medicaid payments for the period January 1,
2007, through December 31, 2010, by $44,751 ($26,980 Federal share).

CAUSE OF INCORRECT HOSPICE CLAIMS AND PAYMENT ERRORS

The incorrect hospice general inpatient care claims occurred because hospice officials stated that
they believed the hospice claims were appropriate given the patients’ conditions at the time of
the upgrade from hospice routine home care to hospice general inpatient care. Furthermore, the
State agency did not establish adequate procedures to detect other payment errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $26,980 to the Federal government,

   •   strengthen internal controls, such as issuing guidance to hospices that better define the
       circumstances for general inpatient care and implementing computer edits to the claims
       processing system to ensure that payments are reduced by the amount of beneficiaries’
       financial contributions and duplicate payments for drugs are not made, and

   •   consider performing additional medical reviews of inpatient hospice services performed
       in a nursing home.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                                5
APPENDIX
                            APPENDIX: STATE AGENCY COMMENTS
                                                                                                            Page 1 of 2


                                                    Steven M. Costantino
                                     Secretary of Health and Human Services
                              STATE OF RHODE ISLAND AND PROVIDENCE PLANTATIONS 

                                           57 Howard Avenue, LP Building 

                                                Cranston, RI 02920 

                                                   401-462-5274 


July 24,2012

Report Number A-O 1-12-00002

Michael 1. Armstrong
Regional Inspector General for Audit Services
Office of Inspector General
Department of Health and Human Services
John F. Kennedy Building, Room 2425
Boston, MA 02203

Dear Mr. Armstrong:

This letter responds to your request for written comments on the review of the draft report on Medicaid payments
made by Rhode Island for state fiscal years 2007 through 2010 (Report Number: A-01-12-00002). Our comments
in response to the recommendations are:

Finding:
Hospice general inpatient care payments did not always meet Federal and State requirements. Specifically, 19 of the
34 claims did not meet the requirements for general inpatient care and should have been billed as routine home care.
This resulted in an overpayment of$39,562 ($23,843 Federal share). All of the services related to 18 ofthese claims
were provided in a nursing home setting. Hospice officials stated that they believed that claims for hospice general
inpatient care were appropriate given the patients' condition at the time of the upgrade from hospice routine home
care to hospice general inpatient care.

We identified additional hospice payment errors related to incorrect cost of care calculations and separate payments
for drug claims. These errors resulted in an overpayment of $5,189 ($3,137 Federal share). These overpayments
occurred because the State agency did not establish adequate procedures to detect these types of errors.

Recommendation:
   1)    Refund $26,980 to the Federal government
   2)    Strengthen internal control, such as issuing guidance to hospices that better define the circumstances
         for general inpatient care and implementing computer edits to the claims processing system to ensure
         that payments are reduced by the amount of beneficiaries' financial contributions and duplicate
         payments for drugs are not made, and
   3)    Consider performing additional medical reviews of inpatient hospice services performed in a nursing
         home.

Rhode Island Medicaid Response:

The current Rhode Island medical assistance program manual for hospice states that hospice routine home care is for
beneficiaries who require hospice services but need less than 8 hours of care per day. The manual further states
hospice general inpatient care is available when it is necessary for pain control or acute symptom management.

Drugs related to the hospice condition should be covered by the hospice agency. Determining if a drug is related to
the hospice condition would require medical record review in each case as opposed to a general system edit.
                                                                                                              Page 2 of 2

Michael J. Armstrong
Page 2
July 24,2012



Corrective Action:
   1) The State concurs with the finding and will adjust its Federal claim by $26,980.
   2) The State will strengthen internal controls through:
            a. State will develop more defmitive guidelines defming routine care vs. general inpatient care and
                provide the guidance to all hospice providers.
            b. State will re-examine the policy and system calculation to validate the beneficiary's fmancial
                contribution and adjust processes if appropriate.
            c. State will provide education to hospice agency as to appropriate billing for drugs that should be
                covered under the hospice benefit. Random retrospective reviews will be performed to ensure
                compliance.
   3) State will perform quarterly medical reviews of inpatient hospice performed in a nursing home.

Thank you for the opportunity to comment. The team led by Curtis Roy and John Sullivan made every effort to
keep the State informed of the status throughout the review and ensured that the information on which fmdings were
based was the correct information.

If you have any questions or need additional information, please do not hesitate to contact Elena Nicolella at 401­
462.0854 or via e-mail at ENicoleIla@ohhs.ri.gov.


Sincerely,




c: 	     Elena Nicolella
         AldaRego
